Nos. 19-1257 & 1258
IN THE

SUPREME COURT OF THE UNITED STATES
_________
MARK BRNOVICH, ET AL.,
v.

Petitioners,

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
_________
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit
_________
AMICI CURIAE BRIEF OF JUDICIAL WATCH,
INC. AND ALLIED EDUCATIONAL
FOUNDATION IN SUPPORT OF PETITIONERS
_________
ROBERT D. POPPER
ERIC W. LEE
JUDICIAL WATCH, INC.
425 Third Street, SW
Suite 800
Washington, DC 20024
(202) 646-5172

LEGAL PRINTERS

LLC

H. CHRISTOPHER COATES
Counsel of Record
LAW OFFICES OF H.
CHRISTOPHER COATES
934 Compass Point
Charleston,
South Carolina 29412
Phone: (843) 609-7080
curriecoates@gmail.com

! Washington, DC ! 202-747-2400 ! legalprinters.com

T. RUSSELL NOBILE
JUDICIAL WATCH, INC.
P.O. Box 6592
Gulfport, MS 39506
(202) 527-9866

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTERESTS OF THE AMICI CURIAE .....................1
SUMMARY OF ARGUMENT.....................................3
ARGUMENT ...............................................................6
THE NINTH CIRCUIT ERRED BECAUSE ITS
FINDINGS OF DISCRIMINATORY RESULTS
UNDER SECTION 2 OF THE VRA WERE NOT
SUPPORTED BY EVIDENCE THAT THE
CHALLENGED VOTING PROCEDURES
CAUSED RACIAL MINORITIES TO HAVE
LESS OPPORTUNITY TO PARTICIPATE IN
THE POLITICAL PROCESS AND TO ELECT
REPRESENTATIVES OF THEIR CHOICE............. 6
I.

Courts Have Used a Two-Step Framework
That Includes a Causation Requirement in
Analyzing Whether a Section 2 Results
Claim Has Been Proven. ..................................6

II.

There Are Substantial Conflicts Within
and Among the Circuits Regarding the
Appropriate Way to Determine Whether
the Causation Requirement of Step One Has
Been Satisfied ...................................................9

ii
III.

Respondents Failed to Prove That
Arizona’s Out-of-Precinct Rule Caused
Minority Voters to Have Less
Opportunity to Participate in the
Political Process and to Elect
Representatives of Their Choice. ...................20

IV.

Respondents Failed to Prove That
Arizona’s H.B. 2023 Procedure That
Restricts Ballot Collection and Delivery
By Third Parties Caused Minority Voters
To Have Less Opportunity to Participate
in the Political Process and to Elect
Representatives of Their Choice. ...................25

CONCLUSION ..........................................................33

iii
TABLE OF AUTHORITIES
Cases

Page(s)

Chisom v. Roemer, 501 U.S. 380 (1991) ........... 7, 8, 14
Crawford v. Marion Cnty. Election Bd.,
553 U.S. 181 (2008) ................................ 1, 30, 31
Democratic Nat’l Comm. v. Hobbs,
948 F.3d 989 (9th Cir. 2020) .................... passim
Democratic Nat’l Comm. v. Reagan,
904 F.3d 686 (9th Cir. 2018) .............................3
Democratic Nat’l Comm. v. Reagan,
329 F. Supp. 3d 824 (D. Ariz. 2018) .............3, 23
Frank v. Walker,
768 F.3d 744 (7th Cir. 2014) .................. passim
Gonzalez v. Arizona,
677 F.3d 383 (9th Cir. 2012) .................... passim
Greater Birmingham Ministries v. Sec’y of State
for Ala., 966 F.3d 1202
(11th Cir. 2020)....................................... passim
Husted v. Ohio State Conference of NAACP,
573 U.S. 988 (2014) ..........................................10

iv
Irby v. Va. State Bd. of Elections,
889 F.2d 1352 (4th Cir. 1989) ..........................16
Johnson v. Gov. of State of Fla.,
405 F.3d 1214 (11th Cir. 2005) ................ 13, 14
League of Women Voters of N.C. v. North Carolina,
769 F.3d 224 (4th Cir. 2014) .... 15, 16, 17, 18, 20
Lee v. Va. State Bd. of Elections,
843 F.3d 592 (4th Cir. 2016) .......... 13, 16, 17, 19
Luft v. Evers, 963 F.3d 665 (7th Cir. 2020) .. 11, 12, 19
Mobile v. Bolden, 446 U.S. 55 (1980)........................18
North Carolina v. N.C. State Conf. of the NAACP,
137 S. Ct. 1399 (2017) ........................................2
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016) .................... passim
Ohio State Conference of NAACP v. Husted,
768 F.3d 524 (6th Cir. 2014) ............................10
Ohio State Conference of NAACP v. Husted,
2014 U.S. App. LEXIS 24472
(6th Cir. Oct. 1, 2014) .......................................10
Ruiz v. City of Santa Maria,
160 F.3d 543 (9th Cir. 1998) ................ 12, 17, 19

v
Shelby Cnty. v. Holder, 570 U.S. 529 (2013) ...... 18, 19
Smith v. Salt River Project Agricultural
Improvement & Power District,
109 F.3d 586 (9th Cir. 1997) .... 12, 14, 17, 19, 27
Thornburg v. Gingles,
478 U.S. 30 (1986) .................................... passim
Veasey v. Abbott,
830 F.3d 216 (5th Cir. 2016)................ 16, 17, 20
Federal Statutes
52 U.S.C. § 10301 .............................................. passim
52 U.S.C. § 10304 ......................................................19
Other Authorities
S. Rep. No. 97-417 (1982) ........................................7, 8
“Election Fraud in North Carolina Leads to New
Charges for Republican Operative,”
The
New
York
Times,
available
at
https://www.nytimes.com/2019/07/30/us/mccraedowless-indictment.html ..................................31

1
IDENTITY AND INTERESTS OF AMICI
CURIAE 1
Judicial Watch, Inc. (“Judicial Watch”) is a
non-partisan,
public
interest
organization
headquartered in Washington, D.C. Founded in
1994,
Judicial
Watch
seeks
to
promote
accountability, transparency and integrity in
government, and fidelity to the rule of law. Judicial
Watch regularly files amicus curiae briefs and
lawsuits related to these goals.
As part of its election integrity mission,
Judicial Watch has a substantial interest in the
proper enforcement of Section 2 of the Voting Rights
Act (VRA), 52 U.S.C. § 10301(a) and (b). After this
Court’s decision in Crawford v. Marion Cnty. Election
Bd., 553 U.S. 181 (2008), upholding Indiana’s voter
identification law, election integrity laws, like
Arizona’s laws here, have been increasingly subject to
challenge under Section 2 of the VRA. It is important
to Judicial Watch that in cases arising under Section
2, and specifically under Section 2’s discriminatory
results standard, that lower courts apply the proper
legal standard.
The Allied Educational Foundation (“AEF”) is
a nonprofit charitable and educational foundation
Amici state that no counsel for a party to this case
authored this brief in whole or in part; and no person or entity,
other than amici and their counsel, made a monetary
contribution intended to fund the preparation and submission of
this brief. Amici sought and obtained the consent of all parties
to the filing of this amici curiae brief.

1

2
based in Englewood, New Jersey. Founded in 1964,
AEF is dedicated to promoting education in diverse
areas of study. AEF regularly files amicus curiae
briefs as a means to advance its purpose and has
appeared as an amicus curiae in this Court on many
occasions.
Amici curiae have submitted several briefs
before district courts, courts of appeals, and this
Court, regarding the proper role of Section 2 in vote
denial cases. See Brief of Amici Curiae Judicial
Watch, Inc. and Allied Educational Foundation, Ohio
Democratic Party v. Husted, No. 16-3561, Dkt. Entry
43 (6th Cir.) (Section 2 challenge to Ohio’s early
voting policy); North Carolina v. N.C. State Conf. of
the NAACP, 137 S. Ct. 1399 (2017) (No. 16-833)
(Section 2 challenge to North Carolina election laws);
Brief of Amici Curiae Judicial Watch, Inc. and Allied
Educational Foundation, Greater Birmingham
Ministries, et al. v. Secretary of State for the State of
Ala., No. 18-10151 (11th Cir.) (Section 2 challenge to
Alabama’s voter ID law).
For the foregoing reasons, amici curiae
respectfully request this Court reverse the judgment
in Democratic Nat’l Comm. v. Hobbs, 948 F.3d 989,
998 (9th Cir. 2020) (en banc) and enter a written
opinion that clarifies the need, in cases brought under
the VRA’s Section 2 results standard, for plaintiffs to
prove that the challenged voting procedure causes
minority voters not to be able to participate equally
in the political process and to elect representatives of
their choice.

3
SUMMARY OF ARGUMENT
In this brief, the arguments presented are
focused upon Respondents’ statutory claims under
the Voting Rights Act (VRA) that arise under Section
2’s discriminatory results standard.
Respondents challenged two of Arizona’s
facially race-neutral regulations designed to protect
the integrity of its elections: restrictions on “out-ofprecinct” (OOP) voting and on third-party collection
and delivery of early ballots. Respondents alleged a
host of violations of federal statutory and
constitutional provisions, including violations of both
the discriminatory results and intent standards of
Section 2 of the VRA. After a 10-day bench trial in
which seven expert witnesses and thirty-three lay
witnesses were heard, the district court ruled in favor
of Arizona on all claims. Democratic Nat’l Comm. v.
Reagan, 329 F. Supp. 3d 824, 833-38 (D. Ariz. 2018).
The Ninth Circuit panel affirmed. Democratic Nat’l
Comm. v. Reagan, 904 F.3d 686 (9th Cir. 2018).
But the Ninth Circuit en banc reversed. In a
sharply divided decision, it found that Arizona’s OOP
and third-party ballot collection laws were enacted
with
a
discriminatory
purpose
and
had
discriminatory results, in violation of Section 2.
Democratic Nat’l Comm. v. Hobbs, 948 F.3d 989, 998
(9th Cir. 2020) (en banc) (hereinafter “Hobbs”). 2
Instead of analyzing whether Arizona’s election laws
caused minority voters to have less opportunity to
2

Certiorari was granted in this case on October 2, 2020.

4
participate in the political process and to elect
candidates of their choice, the Ninth Circuit adopted
the faulty argument that disparate impact plus
historical
discrimination
and
socio-economic
disparities (Senate Factor evidence) is sufficient to
show a Section 2 violation.
In applying Section 2’s results standard in vote
denial cases, courts have developed a two-step
analysis. First, courts ask whether the evidence
indicates that the challenged voting procedures have
caused minority voters to have less opportunity to
participate in the political process and to elect
representatives of their choice. Respondents utterly
failed to adduce any evidence that satisfied this step
one requirement of causation, i.e., that the
challenged voting procedure caused minorities to
have less opportunity to participate in the political
process and to elect representatives of their choice.
Instead, Respondents showed Arizona’s laws
had a disparate impact upon minority voters in
comparison to white voters. That is to say, the
evidence showed that more minorities than whites
voted OOP and whites relied less on third parties to
collect and deliver their early ballots than nonwhites. But in a Section 2 results case, disparate
impact alone is not sufficient to show a violation. 3
Without proof of causation, Respondents have not
satisfied step one. A showing of causation is a
3
Indeed, construing Section 2 in that fashion would
convert this law from a statute that demands equality of
opportunity to one that requires equality of outcome.

5
prerequisite to proving a violation of Section 2’s racial
results standard.
Because of this failure,
Respondents’ Section 2 discriminatory results claims
must fail.
The Ninth Circuit erred when it proceeded to
the next step of the Section 2 analysis, determining
whether the Senate Factors provide evidence of
discriminatory results. In a Section 2 results case
where a “totality of the circumstances” must be
considered, courts may only look to the Senate
Factors if they first find causation. But Hobbs
strayed far from this two-step process by inquiring
whether there was a relationship between the
challenged procedures and the social and historical
conditions that are described in the Senate Factors
without first finding causation. In doing so, the en
banc majority in Hobbs determined that the Senate
Factors weighed in favor of the Respondents, and
then held that the evidence of disparate impact of the
challenged procedures plus the Senate Factor
evidence proved that the challenged voting
procedures violated Section 2’s results standard.
On the issues of what is a plaintiff’s burden of
showing a violation of Section 2’s results standard
and when evidence of past racial discrimination and
present-day socio-economic disparities [i.e., Senate
Factor evidence] may be appropriately used, the
decisions in the courts of appeals are in conflict both
among the circuits and within certain circuits.

6
This Court should reverse the judgment of the
en banc majority in Hobbs and adopt the appropriate
two-step causation analysis, as required by the
textual language of the 1982 amendment to Section 2
of the VRA. Namely, this Court should make it clear
that to prove a Section 2 results claim, challengers of
racially-neutral electoral integrity laws must
establish that the enforcement of those voting
procedures cause minority voters to have less
opportunity to participate in the political process and
to elect candidates of their choice. If plaintiffs fail to
establish this necessary causation element, their
Section 2 results claim fails.
ARGUMENT
THE NINTH CIRCUIT ERRED BECAUSE ITS
FINDINGS OF DISCRIMINATORY RESULTS
UNDER SECTION 2 OF THE VRA WERE NOT
SUPPORTED BY EVIDENCE THAT THE
CHALLENGED VOTING
PROCEDURES
CAUSED RACIAL MINORITIES TO HAVE
LESS OPPORTUNITY TO PARTICIPATE IN
THE POLITICAL PROCESS AND TO ELECT
REPRESENTATIVES OF THEIR CHOICE.
I.

Courts
Have
Used
a
Two-Step
Framework That Includes a Causation
Requirement in Analyzing Whether a
Section 2 Results Claim Has Been Proven.

In determining whether a voting procedure
violates Section 2’s results standard, a number of
courts of appeals have developed a two-step analysis.

7
Hobbs, 948 F.3d at 1012 (collecting cases). “[T]he
first element of the Section 2 claim requires proof
that the challenged standard or practice causally
contributes to the alleged discriminatory impact by
affording protected group members less opportunity
to participate.” Ohio Democratic Party v. Husted, 834
F.3d 620, 637-38 (6th Cir. 2016); see also, Chisom v.
Roemer, 501 U.S. 380, 397 (1991). This step requires
plaintiffs to show a causal connection between the
challenged voting practice and a prohibited
discriminatory result. Hobbs, 948 F.3d at 1012.
Then, and only then, does the court inquire into
whether the discriminatory result is linked to “social
and historic conditions,” set forth in the Senate
Factors, (S. Rep. No. 97-417) at 28-29 (1982). Hobbs,
948 F.3d at 1012-14. If plaintiffs do not carry their
burden in showing causation, courts need not proceed
to analyze the Senate Factor evidence. Id. See also,
Husted, 834 F.3d at 638 (“If this first element is met,
the second step comes into play.”)
In this case the en banc Ninth Circuit erred in
not correctly applying this two-step approach.
Hobbs, 948 F.3d at 1012. Hobbs rightly noted the
first step is to ask whether “as a result of the
challenged practice or structure[,] plaintiffs do not
have an equal opportunity to participate in the
political processes and to elect candidates of their
choice.” Id., quoting Thornburg v. Gingles, 478 U.S.
30, 44 (1986). 4 If it is determined that the challenged
It is important to note that the above-cited textual
language from Section 2(b) uses the conjunctive “and” so that the
4

8
practice causes a lack of equal opportunity for
minority voters and results in them not being able to
elect their preferred candidates, courts then proceed
to step two and inquire into “social and historical
conditions,” as described in the Senate Factors.
Hobbs, 948 F.3d at 1012-14; see also (S. Rep. No. 97417) at 28-29 (1982).
While acknowledging the two-step analysis,
Hobbs failed, however, to require in step one specific,
causal evidence showing that minorities, as a result
of the challenged procedures, had “less opportunity to
participate” and “elect representatives of their
choice.” Id. at 1012-14, 1043. Hobbs thus proceeded
to analyze “social and historical conditions” in the
Senate Factors without the legal predicate for doing
so. As Judge O’Scannlain noted in his dissenting
opinion, “[t]hese [Senate] factors—and the majority’s
lengthy history lesson … simply have no bearing on
this case. Indeed, … [these portions] of the majority’s
opinion may properly be ignored as irrelevant”
because Plaintiffs did not satisfy step one. Hobbs,
948 F.3d at 1057.

text requires both the denial of opportunity to participate equally
and the inability to elect representatives of their choice. The
challenged procedure must cause the denial of opportunity in
both of these closely related areas to establish a Section 2 results
violation. See Chisom, 501 U.S. at 396-97; see also id. at 397 (“It
would distort the plain meaning of the sentence to substitute the
word ‘or’ for the word ‘and.’ Such radical surgery would be
required to separate the opportunity to participate from the
opportunity to elect.”)

9
II.

There Are Substantial Conflicts Within
and Among the Circuits Regarding the
Appropriate Way to Determine Whether
the Causation Requirement of Step One
Has Been Satisfied.

In the seminal case of Thornburg v. Gingles, 5
this Court made clear that to prevail in a
discriminatory results claim under Section 2, it is
necessary for plaintiffs to prove that because of the
challenged voting procedure, minority voters are
“experienc[ing]
substantial
difficulty electing
representatives of their choice.” 478 U.S. at 48 n.15.
The Ninth Circuit in Hobbs strayed drastically from
the standard provided in Gingles.
The Sixth Circuit, by contrast, applied the
proper evidentiary requirement in Ohio Democratic
Party v. Husted, 834 F.3d 620 (6th Cir. 2016). There,
the plaintiffs challenged Ohio’s rule reducing early
voting days and eliminating same day registration.
Id. at 624. African Americans voted during the
earlier voting days and used same day registration
“at a rate higher than other voters.” Id. at 627-28.
The Sixth Circuit noted, however, that Section 2
requires “proof that the challenged standard or
5
Amici curiae believe the central question in this appeal—
what is the proper construction of Section 2’s results standard in
vote denial cases—makes this the most important Section 2
results case since the Gingles ruling in 1986. Just as Gingles
established the framework for bringing vote dilution claims
under Section 2’s discriminatory results standard, this Court
should do the same here for vote denial cases brought under that
standard.

10
practice causally contributes to the alleged
discriminatory impact by affording protected group
members less opportunity to participate.” Id. at 63738. Then it ruled that the challenged procedures in
Husted did not “caus[e] racial inequality in the
opportunity to vote.” Id. at 638, citing Gingles, 478
U.S. at 43-47. Without there being a difference in
“opportunity,” the “existence of a disparate impact” in
the rate at which minority and white voters vote
cannot “establish the sort of injury that is cognizable
and remediable under Section 2.” Husted, 834 F.3d
at 637 (citation omitted).
The Sixth Circuit in Husted made abundantly
clear what is not required for a Section 2 results
analysis. The 2016 Husted court was critical of the
Section 2 analysis in the vacated 2014 Husted
decision relied on by Hobbs. 6 Husted, 834 F.3d at
638-40. More specifically, it noted that the 2014
Husted opinion’s use of the Senate Factors

To be clear, Hobbs relied on the earlier decision reported
at Ohio State Conference of NAACP v. Husted, 768 F.3d 524 (6th
Cir. 2014). The injunction obtained there was stayed by this
Court. Husted v. Ohio State Conference of NAACP, 573 U.S. 988
(2014). It was then vacated in Ohio State Conference of NAACP
v. Husted, 2014 U.S. App. LEXIS 24472 (6th Cir. Oct. 1, 2014).
This vacated case was cited numerous times in Hobbs as
precedent for how to determine whether the Section 2 results test
has been satisfied. See, 948 F.3d at 1012, 1013-14, 1017, 1033.
However, the controlling law in the Sixth Circuit, as now set out
in Ohio Democratic Party v. Husted, 834 F.3d 620 (6th Cir. 2016),
is not referenced at all in Hobbs. But it is the case upon which
amici curiae rely.

6

11
could be erroneously misunderstood to
mean that an alleged disparate impact
that is linked to social and historical
conditions make out a Section 2 violation
… [I]f the second step is divorced from
the first step requirement of causal
contribution by the challenged standard
or practice itself, it is incompatible with
the text of Section 2 and incongruous
with Supreme Court precedent.
Id. at 638. In light of this warning by the 2016
Husted court, it is particularly troubling that Hobbs
relied exclusively upon the 2014 vacated Husted
opinion while neglecting to mention the 2016 Husted
opinion at all.
The Seventh Circuit applied the same
causation requirement in Frank v. Walker, 768 F.3d
744 (7th Cir. 2014). The court there found that
plaintiffs failed to prove that Wisconsin’s voter ID law
had a discriminatory result. Id. at 752. The court in
Frank reasoned that the fact that minorities “do not
get photo IDs at the same frequency as whites” does
not show unequal voter opportunity, only unequal
outcomes. Id. at 753. The court noted that the
Section 2 results standard “does not condemn a
voting practice just because it has a disparate effect.”
Id.
The Seventh Circuit in Luft v. Evers, 963 F.3d
665, 668-69, 672-73 (7th Cir. 2020) followed Frank.
There plaintiffs challenged various Wisconsin voting
rules, including a requirement that voters present

12
“[p]hotographic identification … for in-person
voting,” as violations of Section 2’s discriminatory
results standard, asking the court to overrule Frank.
Id. at 669, 672. The Seventh Circuit refused. Judge
Easterbrook, writing for the Luft court, observed that
Section 2’s results standard “is an equal-treatment
requirement, not an equal-outcome command.” Id. at
672, citing Frank, 768 F.3d at 754. He agreed with
Frank in rejecting the argument that Section 2’s
results standard does not alone “forbid[] any change
in state law that makes voting harder for any
identifiable group.” Id. at 673. 7
Before Hobbs, the Ninth Circuit required a
showing of causation in Section 2 results claims. In
Gonzalez v. Arizona, 677 F.3d 383, 388 (9th Cir. 2012)
(en banc), aff’d on other grounds sub nom. Ariz. v.
Inter Tribal Council of Ariz., Inc., 570 U.S. 1 (2013),
the court addressed whether Arizona’s Proposition
200, which required proof of U.S. citizenship in order
to register to vote, violated Section 2’s results
standard. In ruling against the plaintiffs, the Ninth
Circuit stated, “a § 2 challenge ‘based purely on a
showing of some relevant statistical disparity
between minorities and whites,’ without any evidence
that the challenged voting qualification causes that
disparity, will be rejected.” Id. at 405, citing Smith v.
Salt River Project Agricultural Improvement & Power
District, 109 F.3d 586, 595 (9th Cir. 1997) (emphasis
added); see also, Ruiz v. City of Santa Maria, 160 F.3d
7
In this regard Luft noted that Section 2 of the VRA does
not have an anti-retrogression standard, as does Section 5 of that
Act. “Section 2 must not be read as equivalent to §5(b).” Id. at
673.

13
543, 557 (9th Cir. 1998) (per curiam) (“proof of ‘causal
connection between the challenged voting practice
and a prohibited discriminatory result’ is crucial.”)
(citation omitted).
In Greater Birmingham Ministries v. Sec’y of
State for Ala., 966 F.3d 1202 (11th Cir. 2020)
(hereinafter “GBM”), plaintiffs challenged Alabama’s
“voter ID law and its implementation” as a violation
of Section 2’s results standard. Id. at 1231-32. The
Eleventh Circuit noted that, “[d]espite its broad
language, Section 2 does not prohibit all voting
restrictions
that
may
have
a
racially
disproportionate effect.” GBM, 966 F.3d at 1233,
quoting Johnson v. Gov. of State of Fla., 405 F.3d
1214, 1228 (11th Cir. 2005) (internal quotations
omitted). GBM held that a Section 2 violation is
shown if the enforcement of challenged voting
procedures is proved to “deprive[] minority voters of
an equal opportunity to participate in the electoral
process and to elect representatives of their choice.”
Id. at 1233.
GBM went on to require that the challenged
voter ID law must “have caused the denial or
abridgment of the right to vote on account of race.”
Id. at 1233. Given that 99 percent of white voters
and 98 percent of minority voters possessed a
compliant photo ID, GBM determined that the voter
ID requirement had not caused a denial or
abridgment of the right to vote within the meaning of
the Section 2 results standard. Id. at 1233, 1238.
GBM cited Lee v. Va. State Bd. of Elections, 843 F.3d
592 (4th Cir. 2016) from the Fourth Circuit, Husted

14
from the Sixth Circuit, Frank from the Seventh
Circuit, and Gonzalez and Salt River Project from the
Ninth Circuit, discussed supra, for the proposition
that causation is a required element of a Section 2
results vote denial claim. See GBM, 966 F.3d at 1234
(collecting cases).
Although GBM concluded that disparate
treatment plus Senate Factor evidence is not
sufficient to prove a Section 2 results claim, the court
did not employ the two-step analysis used by other
circuits, where causation is established before
discussing Senate Factors. Relying on Judge Tjoflat’s
concurrence in Johnson, 405 F.3d at 1238, which
demanded a “showing that racial bias in the relevant
community caused the alleged vote-denial,” the court
required that any abridgment in violation of Section
2 be “on account of race.” GBM, 966 F.3d at 1233. 8
Amici curiae respectfully submit that the two-step
analysis used by various courts of appeals outlined
herein, whose first step asks specifically whether the
challenged voting procedure causes minority voters a
denial of an equal opportunity to participate and to
elect candidates of their choice, and not the modified
Judge Tjoflat’s concurrence in Johnson and GBM’s
reliance thereon; 966 F.3d at 1233, that “racial bias in the
relevant community caused” the vote denial could be read to
suggest that racially discriminatory intent must be shown to
prove a Section 2 results violation. However, prior precedent of
this Court clearly holds that proof of discriminatory intent is not
required in a Section 2 results claim. See Chisom, 501 U.S. at
403-04 (“Congress amended the Act [Section 2 of the VRA] in
1982 in order to relieve plaintiffs of the burden of proving
discriminatory intent.”).

8

15
analysis used by the Eleventh Circuit in GBM,
should be the standard analysis used in determining
whether challenged procedures in fact cause racially
discriminatory results within the meaning of Section
2.
In League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224 (4th Cir. 2014) (hereinafter
“LWV”), the Fourth Circuit seemed to reject a
causation requirement. Plaintiffs there challenged
North Carolina’s prohibition against counting OOP
ballots on the grounds that it violated the Section 2
results standard. Id. at 245. In reversing the district
court’s denial of plaintiffs’ motion for a preliminary
injunction, the Fourth Circuit did not require proof
that North Carolina’s OOP policy caused minorities
to have “less opportunity to participate” and “to elect
representatives of their choice.” Id. at 245, 248-49.
Instead, the court applied a disparate impact
analysis, in conjunction with the Senate Factor
evidence, to support a Section 2 results claim. Id. at
243, 245. 9 This approach is the same analysis used
by the en banc majority in Hobbs (i.e., disparate
Importantly, Hobbs understood LWV to strike “down a
state statute that would have prevented the counting of OOP
ballots . . . without inquiring into whether the number of affected
ballots was likely to affect election outcomes.” Hobbs, 948 F.3d at
1043 (emphasis added). Hobbs’ reference to this language in
LWV as the standard in Section 2 results cases and Hobbs’
reliance upon LWV clearly show it did not require Respondents
in this case to prove that the challenged procedures, including
the OOP rule, caused minority voters not to be able to participate
equally and elect representatives of choice. Id. at 1043. Such a
failure of proof was fatal to Respondents’ case.
9

16
impact plus proof of Senate Factors equals
discriminatory results). 948 F.3d at 1012-14, 1043.
But two years after LWV, the Fourth Circuit
went the other way, creating an apparent intracircuit conflict on this point. In Lee v. Va. State Bd.
of Elections, 843 F.3d 592 (4th Cir. 2016), the court
upheld Virginia’s voter ID law on the grounds that all
Virginia voters were “afforded an equal opportunity
to obtain a free voter ID.” Id. at 600. The fact that
“a lower percentage of minorities ha[d] qualifying
photo IDs” (i.e., disparate impact) was not deemed to
be sufficient to establish a discriminatory result
under Section 2. Id. Lee held the plaintiffs “simply
failed” to prove that the challenged voter ID law
caused minorities “less opportunity than others to”
vote (id. at 598, 600) falling in line with precedents
from the Sixth, Seventh, Ninth (before Hobbs) and
Eleventh Circuits. See also, Irby v. Va. State Bd. of
Elections, 889 F.2d 1352, 1358-59 (4th Cir. 1989)
(upholding the challenged procedure where the
evidence “cast considerable doubt on … a causal link
between the appointive system and Black
underrepresentation”).
The Fifth Circuit does not require a showing of
causation. In Veasey v. Abbott, 830 F.3d 216 (5th Cir.
2016) (en banc), a divided court found that the
challenged Texas voter ID law “disparately
impact[ed]” minority voters. Id. at 251, 252. But
rather than asking whether the challenged practice
caused plaintiffs less opportunity to participate and
to elect candidates of their choice, the Veasey court
next examined the “social and historical conditions”

17
of minorities in Texas which, of course, is Senate
Factor evidence, and concluded that the Texas voter
ID law violated Section 2’s results standard. Id. at
245. In other words, Veasey incorrectly held that
disparate impact plus Senate Factor evidence
establishes a violation of Section 2’s results standard.
See id. at 313 (Jones, J., concurring in part and
dissenting in part) (“The majority’s opinion
fundamentally turns on a statistical disparity in ID
possession among different races. . . .”).
The Ninth Circuit’s decision in Hobbs squarely
conflicts with its prior decisions in Salt River Project,
Ruiz and Gonzalez. One would have thought that,
after these three cases, it was clear in the Ninth
Circuit that plaintiffs in a Section 2 results case had
to prove that the challenged voting procedures
caused racial minorities to have less opportunity to
participate and to elect representatives of their
choice. While paying lip service to Section 2’s
statutory language and its own circuit precedents,
Hobbs, in fact, chose not to follow the existing
precedent for Section 2’s results cases, as set forth in
the Fourth [i.e., Lee], Sixth [i.e., Husted] and Seventh
Circuits [i.e., Frank], as well as the aforementioned
pre-Hobbs precedents in the Ninth Circuit.
Instead, Hobbs followed the reasoning of the
Fifth Circuit in Veasey and the Fourth Circuit’s
earlier decision in LWV in holding that disparate
impact plus Senate Factor evidence is sufficient to
prove a Section 2 discriminatory results claim.
Hobbs, 948 F.3d at 1016, 1032, and 1043. See also,
supra at 16 n. 9, where it is clearly shown that Hobbs

18
read LWV to allow for the finding of a Section 2
results violation without even inquiring into whether
the challenged procedure “affect[ed] election
outcomes.” 948 F.3d at 1043. To enforce the Section
2 results standard in this manner is, in effect, to read
out of Section 2 the statutory language that prohibits
a voting procedure which “results in a denial or
abridgement of the right … to vote on account of race
or color” in that minorities “have less opportunity …
to participate in the political process and to elect
representatives of their choice.” 52 U.S.C. § 10301 (a)
and (b).
Disparate impact plus Senate Factor
evidence does not show causation. To hold otherwise
would be indisputably inconsistent with Section 2’s
clear textual language.
For jurisdictions that have past histories of
racial discrimination in voting and present-day, racebased socio-economic disparities, this statutory
construction would convert Section 2 into a federal
prohibition against state and local voting laws that
have only disparate effects. As Judge Branch stated
in GBM, “we also reiterate our caution against
allowing the old, outdated intentions of previous
generations to taint Alabama’s ability to enact voting
legislation.” 966 F.3d at 1236. See also, Mobile v.
Bolden, 446 U.S. 55, 74 (1980) (plurality opinion)
(“But past discrimination cannot, in the manner
of original sin, condemn governmental action that is
not itself unlawful.”); Shelby Cnty. v. Holder, 570 U.S.
529, 553 (2013) (“The [Fifteenth] Amendment is not
designed to punish for the past; its purpose is to
ensure a better future.”).

19
If Congress in amending Section 2 in 1982 had
intended to create a federal prohibition against any
voting procedure that could be shown to have a
disparate impact, even where the procedure cannot
be shown to have caused any denial of the right to
vote, it most certainly would have used statutory
language different from the language found in
Section 2. See 52 U.S.C. § 10301 (a) and (b). Indeed,
Congress did so in 1965 when it enacted a
discriminatory effect standard applicable to the
federal preclearance requirements of Section 5 of the
VRA, 52 U.S.C. § 10304(a) (providing that changes in
voting standards, practices and procedures of covered
jurisdictions shall not be federally precleared if they
“will have the effect of denying or abridging the right
to vote on account of race or color”). 10 Any request
that the Court convert Section 2’s discriminatory
results standard into a new Section 5-like
“discriminatory effects test” by judicial fiat should be
rejected.
Failure to focus upon the statutory text of
Section 2 is an open invitation to inconsistent
constructions of this portion of the Act. These
varying constructions are noted in the conflicting
cases cited in this brief. The correct approach in such
rulings as Lee, Husted, Frank, Luft, Gonzalez, Salt
River Project, and Ruiz, requires parties to actually
produce evidence that the challenged procedure
“results in” minorities having less opportunity “to
participate in the political process and to elect
10
In Shelby County, this Court held that Section 4 of the
VRA’s coverage formula applicable to federal preclearance
determinations under Section 5 was unconstitutional, rendering
Section 5 unenforceable at present. 570 U.S. at 556-57.

20
representatives of their choice,” as the textual
language of Section 2(a) and (b) of the VRA
mandates.
The other approach, which is not based upon
the text of the statute, requires only a showing of
“disparate impact” or “disparate burden,” to satisfy
step one. This is clear from Hobbs, 948 F.3d at 1016,
where the court stated that the Respondents only had
to show that the OOP rule had a “disparate burden
on minority voters.” In the same vein, Hobbs
described its analysis of the third-party ballot
collection issue with a sub-heading entitled “Step
One: Disparate Burden,” and then went on to indicate
that the “question at step one is whether H.B. 2023
results in a disparate burden on a protected class.”
Id. at 1032. It is abundantly clear that Hobbs did not
require Respondents to show that either the OOP
rule or third-party ballot collection procedure caused
or resulted in minority voters not being able to elect
candidates of their choice. Hobbs, along with LWV
and Veasey, fundamentally erred in not requiring
this requisite causation evidence in step one. This
Court should correct this error.
III.

Respondents Failed to Prove That
Arizona’s Out-of-Precinct Rule Caused
Minority
Voters
to
Have
Less
Opportunity to Participate in the
Political
Process
and
to
Elect
Representatives of Their Choice.

The Arizona law restricting OOP voting is the
majority rule in this country. Thirty American

21
jurisdictions (i.e., twenty-six states, the District of
Columbia, and three U.S. territories) have rules that
wholly disregard OOP ballots, while twenty-two
jurisdictions (i.e., twenty states and two territories)
partially count the votes in OOP ballots if the voter is
entitled to vote in certain races on the ballot. Hobbs,
948 F.3d at 1064 (Bybee, J., dissenting).
Furthermore, the OOP rule affects a very
small group of Arizona voters. For example, in 2016
“of those casting in-person ballots on election day,
approximately 99% of minority voters and 99.5% of
non-minority voters cast their ballots in their
assigned precincts.”
Hobbs, 948 F.3d at 1051
(O’Scannlain, J., dissenting). As noted by Hobbs, one
in one hundred minority voters voted OOP, while one
in two hundred white voters voted OOP. Id. at 100405, 1014. Of the very small number of OOP voters,
minority voters, according to Hobbs, “were twice as
likely as white voters to vote out-of-precinct and not
have their votes counted.” 11 Id. at 1014 (citation
omitted).

11
GBM characterized the labeling of miniscule percent
differences as a “misuse of data” that “mask[s] the fact that the
populations were almost identical.” 966 F.3d at 733, citing
Frank, 768 F.3d at 753 n. 3. In labeling the difference between
minority voters (99 percent of whom voted in the correct precinct)
and white voters (99.5 percent of whom voted in the correct
precinct) as representing that minorities were “twice as likely …
to vote out-of-precinct,” the Hobbs court was similarly misusing
data.

22
The fundamental flaw in the Hobbs’ conclusion
that the OOP rule had a racial result is that the
record here contains no statistical or nonstatistical
evidence showing: (1) which candidates in local and
state races in Arizona elections were preferred by
minority voters; 12 (2) the vote margins by which those
minority preferred candidates were defeated; and (3)
whether the number of minority-cast OOP votes, if
counted, was sufficient to have caused the election to
go in favor of the minority preferred candidates.
Without this type of specific evidence, Respondents
utterly failed to carry their burden of showing that
minority preferred candidates were defeated because
of the rejection of minority cast OOP ballots.
Hobbs unsuccessfully attempted to fill this
vacuum in Respondents’ evidence by pointing to
numerous other types of evidence, all irrelevant to
showing causation. 948 F.3d at 1013-16, 1017-31.
None of this evidence is a substitute for the
nonexistent causation evidence showing that the
OOP rule caused minority voters to have less
opportunity
to
participate
and
to
elect
representatives of their choice. First, the Hobbs
majority pointed to the fact that “[v]oting in Arizona
is racially polarized.” Id. at

12
In Gingles, this Court stated that in identifying the
minority preferred candidates, it was “crucial to that inquiry” to
consider “the correlation between race of voter and the selection
of certain candidates.” 478 U.S. at 63. Moreover, according to
this Court, use of bivariate statistical analysis is appropriate in
Section 2 results cases to identify candidates preferred by
minority voters. Id. at 61, 63.

23
1026. 13 Although admissible in step two as Senate
Factor evidence, evidence of racially polarized voting
does not prove that the enforcement of the OOP
ballot-rejection rule caused minority voters’ preferred
candidates to be defeated. Those two issues—racially
polarized voting and causation—are separate and
distinct issues. The Hobbs majority incorrectly
believed that the existence of polarized voting helped
answer the causation question, which it does not.
Second, the Hobbs majority “assumed” the
number of OOP ballots that were cast but not counted
in the 2016 election [3,709 statewide] were not a de
minimis number, reasoning that minority voters cast
twice the number of OOP ballots as white voters. 948
F.3d at 1015. If the Hobbs majority’s assumptions
are correct, that would mean that in the 2016 election
2,475 minority OOP ballots and 1,234 white OOP
ballots were rejected in an election in which 2,661,497
total ballots were cast. See Reagan, 329 F. Supp. 3d.
at 856. But whether the minority-cast portion of the
discarded ballots is deemed de minimis or not misses
the point. Even if the minority-cast portion of the
In support thereof, Hobbs pointed to the district court’s
finding of polarized voting, Reagan, 329 F. Supp. 3d at 876, and
to twelve elections in 2008 and 2010 found by an unidentified
entity to have been racially polarized. Hobbs, 948 F.3d at 1027.
Furthermore, the majority also noted that election polls taken at
the time of the 2016 general election indicated racial polarization
and that the Arizona Independent Redistricting Commission had
found racially polarized voting in one of nine of Arizona’s
congressional districts and in five of its thirty state legislative
districts. Id.

13

24
3,709 OOP ballots is more than de minimis, such
evidence does not suggest, much less prove, that
enforcement of the OOP policy caused minorities less
opportunity to elect candidates of their choice. Quite
simply, even if the adverse impact of the challenged
procedure were more than de minimis and the more
than de minimis impact was shown to be connected
to social and historical conditions (Senate Factor
evidence), this would not be a substitute for the
missing causation evidence.
Third, instead of analyzing how OOP ballot
rejections affected Arizona’s elections, the en banc
majority in Hobbs referred to the 2000 presidential
election in Florida. 948 F.3d at 1016. This election
was the only close election (537 votes) referenced by
the majority. Id. Clearly, what happened in Florida
two decades ago has no bearing on Arizona’s elections
or the two voting procedures challenged in this case.
Nothing in this Florida election in any way addresses
whether the use of the OOP rule in Arizona elections
causes minority voters to have less opportunity to
participate and to elect representatives of their
choice.
Fourth, the en banc majority in Hobbs pointed
to the fact that “minorities make up 44% of Arizona’s
total population, but they hold 25% of Arizona’s
elected offices,” noting that “it is undisputed that
American Indian, Hispanic, and African American
citizens are underrepresented in public office in
Arizona.” 948 F.3d at 1029. The fact that racial
minorities are “underrepresented” in holding Arizona
public offices does not aid Respondents in carrying

25
their burden of proving causation, and certainly does
not show whether the OOP rule has caused minoritypreferred candidates to lose. It would be strange,
indeed, if a statute, such as Section 2, with a specific
anti-proportional representation proviso, 52 U.S.C. §
10301(b),
were
construed
to
mean
that
underrepresentation of minorities in elected positions
could serve as a substitute for the critical causation
evidence required to show a Section 2 violation. See
Gingles, 478 U.S. at 43.
Clearly, the Hobbs court’s conclusion that the
Arizona OOP rule had a racially discriminatory
result was based upon a misunderstanding of the
prohibitions of Section 2. Accordingly, this judgment
in Hobbs should be reversed.
IV.

Respondents Failed to Prove That
Arizona’s H.B. 2023 Procedure That
Restricts Ballot Collection and Delivery
by Third Parties Caused Minority Voters
to Have Less Opportunity to Participate
in The Political Process and to Elect
Representatives of Their Choice.

Prior to 2016, an unknown number of
Arizona’s minority voters used the assistance of third
parties to collect their early ballots and deliver them
to election officials more than white voters did.
Hobbs, 948 F.3d at 1005, 1006. In 2016, Arizona
enacted legislation known as H.B. 2023, which
limited third party collection and delivery of early

26
ballots 14 to a “family member, house member,
caregiver, United States postal service worker” or
other authorized officials. Id. at 1048 (O’Scannlain,
J., dissenting).
Respondents’ attempts to prove that this
Arizona procedure restricting collection and delivery
of early ballots caused minority-preferred candidates
to lose were even less persuasive than their showing
regarding the OOP policy. Respondents’ evidence on
this point consisted almost entirely of testimony that,
prior to the enactment of H.B. 2023, “third parties
collected a large and disproportionate number of
early ballots from minority voters.” Hobbs, 948 F.3d
at 1032. Witnesses “testified … to having personally
collected, or to having personally witnessed the
collection of, thousands of early ballots from minority
voters.” Id. at 1032. But Respondents provided no
evidence of specific numbers of ballots cast with the
type of assistance proscribed by H.B. 2023. Id. at
1005-06. Importantly, no individual voter testified
that these ballot-collection and delivery restrictions
made it “significantly more difficult to vote.” Id. at
1055 (O’Scannlain, J., dissenting).
“[A]necdotal
evidence of how voters have chosen to vote in the past
does not establish that voters are unable to vote in

14
The practice of third parties collecting ballots from voters
and delivering those ballots to postal or election officials, in lieu
of voters themselves mailing or delivering the ballot to election
officials is commonly referred to as “ballot harvesting.” This is
particularly the case where the third parties collecting and
delivering the ballots are political operatives acting on behalf of
partisan political parties or candidates for public office.

27
other ways or would be burdened by having to do so.”
Id.
Hobbs pointed to no testimonial or
documentary evidence comparing the number of
early ballots delivered to election officials by third
parties before and after enactment of H.B. 2023. The
majority in Hobbs, citing only testimonial evidence of
a “large and disproportionate number of” assisted
early ballots from minority voters, then “found that
“[n]o better evidence was required.” 948 F.3d at 1033.
Hobbs then went on to hold that “H.B. 2023 results in
a disparate burden on minority voters,” and that
Respondents had “succeeded at step one of the results
test.” Id. at 1033.
In addition, Respondents made no showing
concerning whether the enforcement of the
challenged H.B. 2023 restrictions caused minoritypreferred candidates to lose elections, an error fatal
to Respondents’ Section 2 results claim. As Judge
O’Scannlain stated in his dissent, quoting Gingles, at
48 n.15, 15 “It is obvious that unless minority group
members experience substantial difficulty electing
representatives of their choice, they cannot prove
Hobbs’ attempts to diminish the impact of this language
in Gingles by pointing out that Gingles was a vote dilution case
under Section 2, and not a vote denial case, such as here. Hobbs,
948 F.3d at 1043-44. However, legal precedents in the Ninth
Circuit stand for the proposition that the standards for proving a
discriminatory result claim under Section 2 are very similar
regardless of whether the case involves a vote denial or a vote
dilution claim. See e.g., Salt River Project, 109 F.3d at 596 n. 8;
and Gonzalez, 677 F.3d at 405 n. 32.

15

28
that a challenged electoral mechanism impairs their
ability ‘to elect.’” Hobbs, 948 F.3d at 1051. Clearly,
Respondents in this case did not prove the causation
element. They did not show that the ballot-collection
policy caused the defeat of any minority-preferred
candidates.
By way of example, a persuasive showing that
the restrictions of H.B. 2023 were causing minority
voters “substantial difficulty” electing their preferred
candidates might have included evidence: (1)
identifying minority preferred candidates who ran
and lost in Arizona elections since the 2016
enactment of H.B. 2023; (2) showing how many
minority voters who were entitled to vote in those
elections did not vote because of restrictions on thirdparty assistance; and (3) showing at least by
statistical methods testimony that, if this number of
minority voters had cast ballots for the minoritypreferred candidates, those votes would have likely
caused those preferred candidates to win. Without a
showing of this kind, plaintiffs in Section 2 results
claims cannot carry their burden of proving causation
in step one.
In the clear language of Section 2, Respondents
were required to prove that the restrictions on thirdparty assistance resulted in denying minority voters
an opportunity to participate and to elect
representatives of their choice.
However, in
explaining why it found that Respondent had
satisfied its burden of proof, Hobbs did not point to
any elections in which minority preferred candidates
were defeated because of the restrictions in the

29
ballot-collection policy. 948 F.3d at 1032-33. See
also, id. at 1056 (“Thus, from the record, we do not
know either the extent to which voters may be
burdened by the ballot-collection policy or how many
minority voters may be so burdened.”) (O’Scannlain,
J., dissenting).
Importantly, Hobbs stated that a “particular
connection to statewide office does not exist between
H.B. 2023 and election of minorities.” 16 948 F.3d at
1035. However, Hobbs went on to opine that H.B.
2023 is “likely to have a pronounced effect in rural
counties
with
significant”
racial
minority
populations. Id.
Hobbs further opined that
discriminatory results under Section 2 would more
likely occur in counties that “lack reliable” mail and
transportation services, “and where a smaller
number of votes can have a significant impact on
election outcomes.” Id. Such observations by Hobbs
are not supported by evidence in the record.
Respondents’ failures of proof concerning the alleged
discriminatory results of H.B. 2023’s restrictions
cannot be corrected by appellate court conjecture.
Accordingly, the Hobbs majority’s speculation about
what may occur in smaller counties does not cure
Respondents’ failure of proof. Indeed, Respondents’
failure to offer any such evidence regarding the
Hobbs’ conclusion that H.B. 2023’s restrictions do not
have a discriminatory result in Arizona’s statewide elections has
important ramifications for this case. It would mean that, even
though the ballot-collection and delivery restrictions are not
violative of the Section 2 results standard in statewide elections,
Arizona would nevertheless be enjoined from enforcing the
restrictions in such elections as well as in local elections.
16

30
impact of H.B. 2023 in Arizona’s smaller counties
calls into question whether this claim challenging
H.B. 2023 was even ripe for adjudication.
Moreover, in its inquiry concerning the legality
of H.B. 2023, Hobbs gave great weight to the fact that
“no one has ever found a case of voter fraud connected
to third-party ballot collection in Arizona.” 948 F.3d
at 1035. But this misses the mark. In Crawford v.
Marion Cnty. Election Bd., 553 U.S. 181, 195-96
(2008), this Court rejected a challenge to an Indiana
law that required voters to provide a photo ID if
voting at the polls. Id. In doing so it also rejected the
argument that actual evidence of voter fraud was
needed to justify a state’s decision to enact
prophylactic laws aimed at preventing voter fraud:
The record contains no evidence of any
such [in-person voter] fraud actually
occurring in Indiana at any time in its
history …. It remains true, however,
that flagrant examples of such fraud in
other parts of the country have been
documented throughout this Nation’s
history by respected historians and
journalists, … demonstrate[ing] that not
only is the risk of voter fraud real but
that it could affect the outcome of a close
election.
Id. at 194-96 (footnotes omitted).
Crawford went on to recognize that while
protecting public confidence in the “legitimacy of

31
representative government” is “closely related to the
State’s interest in preventing voter fraud, public
confidence in the integrity of the electoral process has
independent significance.” Id. at 197. Unregulated
collection of third-party ballots can undermine public
confidence in the integrity of elections. This is
demonstrated by the ballot collection fraud that
recently occurred in North Carolina in 2018. 17
Arizona’s interest in preventing voter fraud
and protecting public confidence in the electoral
process provided two legitimate bases for enacting
anti-fraud election regulations, such as H.B. 2023,
without any direct evidence that ballot-collection
fraud had been committed in the State. Hobbs’
failure to “even mention Crawford” in its opinion may
indicate that it overlooked Crawford and did not
“grapple with its consequences on this case.” Hobbs,
948 F.3d at 1059 (O’Scannlain, J., dissenting). The
majority failed to recognize that Crawford clearly
indicated that states do not have to have evidence of
voter fraud to enact prophylactic statutes against
fraud. That failure caused the majority in Hobbs to
place undue importance on the lack of such evidence
in this case. The majority erred in believing that the
lack of voter fraud evidence weighed in favor of
Respondents’ Section 2 results claims. Certainly, a
lack of voter fraud evidence does not replace the
See “Election Fraud in North Carolina Leads to New
Charges for Republican Operative,” The New York Times,
available at https://www.nytimes.com/2019/07/30/us/mccraedowless-indictment.html.
17

32
required evidence
causation.

that

is

missing—proof

of

Therefore, the ruling in Hobbs by the en banc
Ninth Circuit that restrictions on ballot collection
and delivery, as provided in H.B. 2023, violated
Section 2’s discriminatory results standard is
manifest error. 18

18
Petitioners argue in their briefs that to construe Section
2’s results standard as requiring only a showing of disparate
racial impact plus Senate Factor evidence, rather than a showing
of causality as well, raises serious concerns about the
constitutionality of the Section 2 results standard. Brief for State
Petitioners, Nos. 19-1257 at pp. 24-30; and Brief for Private
Petitioners, Nos. 19-1257 and 1258 at pp. 39-42. Amici Curiae
believe that those constitutional concerns are further legitimate
reasons for not adopting the expansive reading Respondents are
seeking for the Section 2 results standard in this case.

33
CONCLUSION
For the foregoing reasons, amici curiae
respectfully request that this Court reverse the
judgment of the Ninth Circuit.
Respectfully submitted,
ROBERT D. POPPER
ERIC W. LEE
JUDICIAL WATCH, INC.
425 Third Street, SW
Suite 800
Washington, DC 20024
(202) 646-5172

T. RUSSELL NOBILE
JUDICIAL WATCH, INC.
P.O. Box 6592
Gulfport, MS 39506
(202) 527-9866

H. CHRISTOPHER COATES
Counsel of Record
LAW OFFICES OF H.
CHRISTOPHER COATES
934 Compass Point
Charleston,
South Carolina 29412
Phone: (843) 609-7080
curriecoates@gmail.com

